Memorandum No. D2010-RAM-008      June 11, 2010





        American Recovery and Reinvestment Act 

         Project—Repair and Modernization of 

             Littoral Combat Ship Squadron 

                  Building at Naval Base 

                   San Diego, California

Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
NB San Diego                  Naval Base San Diego
LCSRON                        Littoral Combat Ship Squadron
FAR                           Federal Acquisition Regulation
NAVFAC                        Naval Facilities Engineering Command
IPT                           Integrated Product Team
OMB                           Office of Management and Budget
PWD                           Public Works Department
QMAD                          Quantitative Methods and Analysis Division
                                 INSPECTOR GENERAL 

                                 DEPARTMENT OF DEFENSE 

                                   400 ARMY NAVY DRIVE 

                              ARLINGTON, VIRGINIA 22202-4704 





                                                                                 JUN 1 t 2010


MEMORANDUM FOR NAVAL INSPECTOR GENERAL
               COMMANDING OFFICER, NAVAL FACILITIES
                 ENGINEERING COMMAND SOUTHWEST

SUBJECT: 	 American Recovery and Reinvestment Act Project-Repair and
           Modernization of Littoral Combat Ship Squadron Building at Naval Base
           San Diego, California (Memorandum No. D2010-RAM-008)

We are providing this report for your information and use. We performed this audit in
response to the requirements of Public Law 111 -5 , The American Recovery and
Reinvestment Act of2009. We considered management comments on a discussion draft
of the report when preparing the final report. No additional comments are required.

We appreciate the courtesies extended to the staff. Please direct questions to
Mr. Timothy Wimette at (703) 604-8876 (DSN 664-8876).



                                          £/-~

                                             Alice F. Carey
                                             Assistant Inspector General
                                             Readiness, Operations, and Support
 Memorandum No. D2010-RAM-008 (Project No. D2009-D000LH-0314.000)                  June 11, 2010


              Results in Brief: American Recovery and
              Reinvestment Act Project—Repair and
              Modernization of Littoral Combat Ship
              Squadron Building at Naval Base San Diego,
              California

What We Did
Our overall objective was to evaluate DOD’s
implementation of the American Recovery and
Reinvestment Act of 2009, February 17, 2009.
Specifically, we determined whether Navy
personnel adequately planned, funded, executed,
tracked, and reported Project ST155-08, to repair
and modernize the Littoral Combat Ship
Squadron Building 55 at Naval Base San Diego,
to ensure the appropriate use of Recovery Act
funds.

What We Found
We determined that Project ST155-08 was
justified and met the Recovery Act goals
regarding accountability and transparency.
Personnel at Naval Facilities Engineering
Command Southwest Public Works Department
at Naval Base San Diego planned, funded,
executed, and had procedures in place to track           Modular Stairs over Existing Stairway at 

and report the project as required by the Recovery             Naval Base San Diego, CA 

Act and implementation guidance.

Although the contract initially omitted six
required Federal Acquisition Regulation clauses,
contracting personnel subsequently issued
contract modifications to include the clauses.

What We Recommend
This report contains no recommendations.

Management Comments
We coordinated with Naval Facilities Engineering
Command Southwest personnel on a discussion
draft of this report and incorporated their                    Inefficient HVAC System at 

information into the final report.                              Naval Base San Diego, CA



                                                     i
Introduction
Objective
Our overall objective was to evaluate DOD's implementation of the American Recovery
and Reinvestment Act of 2009 (Recovery Act), February 17, 2009. We reviewed the
implementation of the DOD Recovery Act plans at the Service and installation levels to
determine whether Navy personnel managed Recovery Act projects to achieve the
accountability and transparency goals of the Recovery Act. Specifically, we determined
whether personnel at Naval Base San Diego (NB San Diego) adequately planned, funded,
executed, tracked, and reported Project ST155-08, to repair and modernize Building 55 at
NB San Diego, to ensure the appropriate use of Recovery Act funds. See the appendix
for a discussion of the audit scope and methodology related to the audit objective.

Background
In passing the Recovery Act, Congress provided supplemental appropriations to preserve
and create jobs; promote economic recovery; assist those most impacted by the recession;
provide investments to increase economic efficiency by spurring technological advances
in science and health; and invest in transportation, environmental protection, and other
infrastructure. The Recovery Act also established unprecedented efforts to ensure the
responsible distribution of funds for its purposes and to provide transparency and
accountability of expenditures by informing the public of how, when, and where tax
dollars were being spent. Further, the Recovery Act states that the President and heads of
the Federal departments and agencies were to expend these funds as quickly as possible,
consistent with prudent management.

DOD received about $6.8 billion1 in Recovery Act funds to use for projects that support
the Act’s purpose. In March 2009, DOD released the expenditure plans for the Recovery
Act, which list DOD projects (except for U.S. Army Corps of Engineer projects and the
Homeowners Assistance Fund) that will receive Recovery Act funds. The Department of
the Navy received $1.928 billion in Recovery Act funds for Operations and Maintenance;
Military Construction; and Research, Development, Test and Evaluation. Table 1
provides specific funds allocated to each appropriation.




1
  The $6.8 billion does not include $4.6 billion for the U.S. Army Corps of Engineers or $555 million for
the Homeowners Assistance Fund.
                                                     1

        Table 1. Department of Navy Program-Specific Recovery Act Plans
                       Plan                           Amount (millions)
 Operations and Maintenance                                 $916
 Military Construction                                        937
 Research, Development, Test and Evaluation                    75
  Total                                                    $1,928

Of the $1.928 billion, the Department of Navy allocated approximately $12.3 million
(Operations and Maintenance) to support the repair and modernization of Littoral Combat
Ship Squadron (LCSRON) Building 55 at NB San Diego. This project consists of repairs
to deteriorated architectural, mechanical, and electrical components; updates to the fire
protection systems; and seismic upgrades, which consist of steel braces to the outer walls
of the building. The repairs will provide a consolidated space for LCSRON
Headquarters, command suites, and administrative spaces.




                                            2

Audit Results
We determined that Project ST155-08 met the standards for accountability and
transparency as provided in the Recovery Act. The project was justified, and personnel at
the Naval Facilities Engineering Command (NAVFAC) Southwest Public Works
Department at NB San Diego (the PWD) planned, funded, and executed the project in
order to achieve the goals of the Recovery Act. In addition, PWD personnel had
procedures in place to track and report the project as required by the Recovery Act.
Although the contract initially omitted six Federal Acquisition Regulation (FAR) clauses
required by Recovery Act implementation guidance, contracting personnel subsequently
issued contract modifications to include the clauses.

Planning
PWD personnel appropriately planned the project, which we determined to be justified.
According to the project planning documents, the building is in an overall state of
deterioration with windows boarded up for weather and security precautions. In addition,
internal partitions and wall configurations inside this building do not facilitate an open
office floor plan. The project planning documents state this project will increase the
efficiency of the existing facility by opening the floor plan to allow for flexible uses and
creating a secure area for shared use. The project will provide a consolidated space for
the LCSRON Headquarters, command suites, and administrative spaces.

PWD personnel appropriately planned the project by completing a detailed cost estimate
and economic analysis. PWD personnel based the cost estimate on the number of square
feet requiring repair and modernization. Additionally, PWD personnel included an
option in the proposal to upgrade the building to meet seismic standards. The economic
analysis considered possible alternatives for providing administrative space for LCSRON
such as maintaining the status quo, leasing, renovating, and construction. PWD
personnel determined that renovation was the best option because it was less expensive
than new construction.

Funding
Navy personnel distributed Recovery Act funds to the Building 55 repair and
modernization project in a timely manner, and funding documents properly identified a
Recovery Act designation. According to the funding documents, NAVFAC Southwest
received approximately $12.3 million in Recovery Act funds on September 25, 2009, and
NAVFAC Southwest awarded the contract on September 30, 2009. Additionally, the
funding documents identified the appropriate Recovery Act line of accounting for
appropriation.




                                             3

Execution
The NAVFAC Southwest Integrated Product Team at NB San Diego (the IPT)
adequately performed initial execution of the Recovery Act project. In our evaluation of
initial project execution, we determined whether NAVFAC Southwest competitively
solicited and awarded the contract, with full transparency, and whether the contract
contained the FAR clauses required by Recovery Act implementation guidance.

IPT personnel awarded the contract competitively at a firm fixed price of approximately
$12.3 million on September 30, 2009, one month earlier than the milestone in DOD’s
expenditure plan for the Recovery Act.

IPT personnel competitively issued the request for proposal, and three companies
responded. The source selection board evaluated the proposals based on project work
plan, past performance, schedule, and price. The source selection board selected R.A.
Burch Construction Company, Incorporated (R.A. Burch Construction Co.) based on its
overall “Excellent” technical rating and a proposed schedule that would complete
construction 11 days ahead of the planned completion date. R.A. Burch Construction Co.
also had the second lowest price and was a small business when the multiple award
construction contract was awarded in January 2008. Although the company’s status has
changed since that time, its small business status will remain throughout the life of the
multiple award construction contract. In addition, R.A. Burch Construction Co.
registered on the Central Contractor Registration Web page, and the Excluded Parties
List System did not include them as a debarred contractor.

Contracting personnel properly recorded contract actions to facilitate full transparency.
Office of Management and Budget (OMB) Memorandum M-09-15, “Updated
Implementing Guidance for the American Recovery and Reinvestment Act of 2009,”
April 3, 2009, describes requirements for reporting Recovery Act-funded actions in the
Federal Procurement Data System and publicizing actions on the Federal Business
Opportunities Web site. Contracting personnel properly reported the contract award in
the Federal Procurement Data System and announced the solicitation and contract award
on the Federal Business Opportunities Web site.

The contract originally omitted six FAR clauses; however, NAVFAC Southwest
personnel subsequently modified it to include these clauses. NAVFAC Southwest
contracting personnel included most of the required Recovery Act FAR clauses,
including those for whistleblower protection, reporting, the Davis-Bacon Act, and the
Buy American Act. However, we identified one missing subcontracting clause,
FAR 52.244-6, “Subcontracts for Commercial Items” and five clauses required by
FAR Part 23, “Environment, Energy, and Water Efficiency, Renewable Energy
Technologies, Occupational Safety, and Drug-free Workplace.” FAR Part 23 prescribes




                                            4

policies and procedures for protecting and improving the quality of the environment.
According to OMB Memorandum M-09-15, agencies must comply with the requirements
of FAR Part 23 when acquiring supplies and services 2 using Recovery Act funds. The
                                                                      FPFPFP   PFPFPF




contract omitted the following clauses required by FAR Part 23:

              FAR 52.223-2, “Affirmative Procurement of Biobased Products Under Service
               and Construction Contracts;”
              FAR 52.223-7, “Notice of Radioactive Materials;”
              FAR 52.223-12, “Refrigeration Equipment and Air Conditioners;”
              FAR 52.223-15, “Energy Efficiency in Energy Consuming Products;” and
              FAR 52.223-17, “Affirmative Procurement of EPA-designated Items in Service
               and Construction Contracts.”

Without these clauses, Navy officials could not hold contractors accountable for all
Recovery Act requirements or ensure the protection and improvement of environment.
Since we identified this issue, NAVFAC Southwest contracting personnel modified the
contract to include the six missing clauses. In addition, as a result of our review,
NAVFAC personnel at NB San Diego created a reference list of applicable FAR clauses
to use when awarding future Recovery Act contracts.

Tracking and Reporting
Although repair and modernization of Building 55 had not started at the time of our
review, PWD personnel had adequate procedures in place to track and report the project.
According to the construction manager, the engineering technician and he are responsible
for monitoring the contract’s execution. Specifically, the construction manager will
address nonconformances during project execution, and the engineering technician will
monitor contractor schedules and ensure the contractor meets contract requirements. In
addition, the project manager stated that he attends regular quality control and production
meetings to monitor the quality and progress of the contractor’s work.

Furthermore, a supervisory contract specialist was monitoring the contractor reporting to
ensure reports include the required Recovery Act information. FAR clause 52.204-11,
“American Recovery and Reinvestment Act – Reporting Requirements,” requires
contractors for Recovery Act projects to report project information at
http://www.FederalReporting.gov. R.A. Burch Construction Co., Inc. reported the
number of jobs created and the project’s total dollar value as required.




2
P   P   According to the definition of an acquisition in FAR Subpart 2.101, construction is a service.




                                                            5

Conclusion
We concluded that the LCSRON Building 55 project was justified. Personnel at
NAVFAC Southwest and NB San Diego adequately planned, funded, and executed
Project ST155-08 in accordance with the accountability and transparency requirements of
the Recovery Act. In addition, personnel at NAVFAC Southwest and NB San Diego had
procedures in place to track and report the project as required by the Recovery Act.
Although the contract originally omitted six FAR clauses, NAVFAC Southwest
personnel subsequently modified it to include these clauses. Therefore, this report
contains no recommendations.




                                           6

Appendix. Scope and Methodology
We conducted this performance audit from September 2009 through May 2010. We
interviewed key personnel from the NAVFAC Southwest IPT and PWD at NB San
Diego. We reviewed documentation including the official contract file, economic
analysis, cost estimate, DD Form 1391 and associated support, and processes for tracking
and reporting Recovery Act projects. We also conducted a site visit to tour Building 55.
We reviewed Federal, DOD, and Navy guidance, and compared this guidance with our
audit results.

We conducted this audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives.

Use of Computer-Processed Data
We used computer-processed data from the Federal Procurement Data System, Central
Contractor Registration, Excluded Parties List System, Federal Business Opportunities,
www.federalreporting.gov, and other systems. However, our use of computer-processed
data did not materially affect our audit results, findings, or conclusions, and the
information we used was obtained from sources generally recognized as appropriate.
Therefore, we did not evaluate the reliability of the computer-processed data we used.

Use of Technical Assistance
Before selecting DOD Recovery Act projects for audit, personnel in the Quantitative
Methods and Analysis Division (QMAD) of the DOD Office of Inspector General
analyzed all DOD agency-funded projects, locations, and contracting oversight
organizations to assess the risk of waste, fraud, and abuse associated with each. QMAD
personnel selected most audit projects and locations using a modified Delphi technique,
which allowed them to quantify the risk based on expert auditor judgment and other
quantitatively developed risk indicators. Initially, QMAD personnel selected 83 projects
with the highest risk rankings. Auditors chose some additional projects at the selected
locations.

QMAD personnel did not use classical statistical sampling techniques that would permit
generalizing results to the total population because there were too many potential
variables with unknown parameters at the beginning of this analysis. The predictive
analytic techniques employed provided a basis for logical coverage not only of ARRA
dollars being expended, but also of types of projects and types of locations across the
Military Services, Defense agencies, State National Guard units, and public works
projects managed by U.S. Army Corps of Engineers.




                                           7

Prior Audit Coverage
The Government Accountability Office, the Department of Defense Inspector General,
and the Military Departments have issued reports and memoranda discussing DOD
projects funded by the Recovery Act. You can access unrestricted reports at
http://www.recovery.gov/accountability.




                                         8

